FOLLOW-UP AUDIT OF THE IMPLEMENTATION OF THE
     RISK-FOCUSED EXAMINATION PROCESS



               Audit Report No. 00-016
                     May 5, 2000




              OFFICE OF AUDITS

        OFFICE OF INSPECTOR GENERAL
Federal Deposit Insurance Corporation                                                      Office of Audits
Washington, D.C. 20434                                                         Office of Inspector General




   DATE:                         May 5, 2000




   MEMORANDUM TO:                James L. Sexton, Director
                                 Division of Supervision




   FROM:                         David H. Loewenstein
                                 Assistant Inspector General

   SUBJECT:                      Draft Report Entitled
                                 Follow-up Audit of the Implementation of the Risk-Focused
                                 Examination Process (Audit Report No. 00-016)


   The FDIC Office of Inspector General (OIG) has completed a follow-up audit addressing the
   FDIC’s implementation of the risk-focused process for safety and soundness examinations.

   On November 5, 1998, the OIG issued a report entitled Audit of Implementation of the Risk-
   Focused Examination Process that assessed the Division of Supervision's (DOS) initial
   implementation of this new examination process. The results of that audit showed that while
   DOS recognized the need to develop and initiate a nationwide risk-focused examination
   approach, the process was not being implemented in field offices as intended by DOS
   headquarters management. In response to our audit, DOS took prompt action to incorporate our
   recommendations in regional director memoranda and ongoing training initiatives. DOS also
   established a committee to obtain feedback from examiners and to update the examination
   modules.

   This report assesses the overall progress DOS has made in implementing the risk-focused
   examination approach since our last review. DOS also requested that we include in our review
   the use of the risk-focused examination approach in situations where the FDIC conducts
   examinations jointly with a state banking department.


   BACKGROUND

   On October 1, 1997, the FDIC, in conjunction with the Federal Reserve Board and the
   Conference of State Bank Supervisors (CSBS), began implementing a new risk-focused
   examination process designed to focus bank examinations on bank functions that pose the
   greatest risk exposure. Under the risk-focused approach, examiners target examination resources
on the areas of greatest risk within the bank, thereby increasing the effectiveness of the
examination process without requiring increased resources.

The risk-focused examination process attempts to assess an institution's risk by evaluating its
ability to identify, measure, evaluate, and control risk. If management controls are properly
designed and effectively applied, they should help ensure that satisfactory future performance is
achieved. In a rapidly changing environment, a bank's condition at any given point in time may
not be indicative of its future performance. The risk-focused examination process seeks to strike
an appropriate balance between evaluating the condition of an institution at a certain point in
time and evaluating the soundness of the bank's processes for managing risk. Moreover, the risk-
focused approach may involve less regulatory burden by testing, rather than duplicating, the
work of audit and management review functions.

To ensure consistent application nationwide, DOS developed examination procedure modules to
provide examiners with a tool to focus on risk management and to establish an appropriate
examination scope. There are nine core examination modules that examiners must address at
every examination and eight supplemental modules that address specialized areas such as
international banking and credit card lending. Each module contains a series of examination
procedures for examiners to consider when evaluating an institution's risk. Instructions in the
examination modules provide that "the most effective and efficient examination approach
focuses examiner resources on validating bank management's ability to identify, measure,
monitor, and control risks." Internal audits, external audits, loan reviews, and other control
activities are integral to a bank's own assessment of its risk profile. Use of the risk-focused
examination modules is mandatory at every DOS safety and soundness examination.

During 1998, the OIG reviewed the FDIC's initial implementation of the risk-focused
examination process. At that time, we found that most examiners were unclear as to the goals
and objectives of the risk-focused examination approach, examination modules were not being
completed as intended, and examiners were not using the automated software because they felt it
was too cumbersome and was adding to the time and effort necessary to complete bank
examinations. In addition, DOS management had not developed a comprehensive evaluation
system to monitor the progress in implementing the risk-focused approach. The report contained
five recommendations to DOS management to help improve the implementation of the risk-
focused examination process. Those recommendations were as follows:

(1)    Develop and communicate to examiners the program's goals and objectives that convey
       management's specific expectations for the processes and outcomes of the risk-focused
       examination process, including the amount of effort expected for the planning phase of
       examinations and the use of the modules during the examination;

(2)    Clarify DOS's policy and instructions to examiners as to what constitutes the adequate
       documentation of modules;

(3)    Develop a supervisory review process to ensure that examination modules are used
       consistently and contain adequate supporting documentation;



                                                 2
(4)    Provide a refresher course to all field examiners on the use of the Examination
       Documentation (ED) software and provide clarification on issues that have emerged since
       the modules have been instituted; and

(5)    Develop a comprehensive evaluation system that systematically monitors and assesses
       DOS's progress in achieving desired risk-focused goals and objectives and uses
       evaluation results to improve program processes and products.

The Director of DOS agreed with the report's recommendations. In response, DOS issued a
series of divisional memoranda clarifying the program's goals and objectives along with
providing additional training to examiners to assist them in implementing the risk-focused
process.


OBJECTIVES, SCOPE, AND METHODOLOGY

Our audit objectives were to: (1) assess the progress made by DOS in implementing the risk-
focused examination process since our last review and (2) determine whether recommendations
made in our prior audit report have been implemented.

To accomplish these objectives, we: (1) reviewed a total of 49 examination reports and
corresponding workpaper files for examinations conducted using the risk-focused approach in
two DOS regions; (2) interviewed management officials in Washington, D.C. and at the
Memphis and New York regional offices; (3) interviewed 5 field office supervisors, 10
supervisory examiners, and 18 examiners and assistant examiners; and (4) reviewed the risk-
focused examination modules, instructions, and other guidance to examiners pertaining to risk-
focused examinations.

We performed fieldwork in Washington, D.C., the DOS Memphis and New York regional
offices, and five field offices located in the Memphis and New York regions. We focused our
review on examinations that had been performed during the period of April 1, 1999 through
October 31, 1999. The audit was conducted in accordance with generally accepted government
auditing standards. The audit fieldwork was conducted from October 1999 through February
2000.


RESULTS OF AUDIT

DOS has made progress in implementing the risk-focused examination process. Divisional
memoranda and additional training have helped to clarify what is expected of examiners.
Examiners we interviewed appear to have a better understanding of the risk-focused process and
we noted that the use and documentation of the ED modules have improved since our last audit.

However, we believe there are still some aspects of the process that could be improved.
Specifically, we found that there are inconsistencies in the way examiners have been
implementing the risk-focused process. Also, many examiners are still uncertain as to what


                                               3
constitutes adequate documentation of the modules, the supervisory review process varies greatly
between field offices, and examiners by and large are not using the automated software except to
print out the module questions. We found that the risk-focused examination process appeared to
be better implemented at those field offices that had a structured supervisory review process.

One other issue dealing with joint examinations came to our attention that should be addressed
by management. Several examiners indicated to us that during a joint examination, they are not
sure what to do if state examiners choose not to use the ED modules/risk-focused process. Some
examiners told us that they go ahead and complete the modules as best they can while others said
that they simply omit the ED modules. DOS should issue guidance to examiners to help clarify
their responsibilities during a joint examination.

DOS management was responsive to the five recommendations contained in our last audit report.
Although policies and training have helped examiners in implementing the risk-focused process,
we believe opportunities exist to achieve a more uniform and consistent risk-focused approach.
Accordingly, we have included six additional recommendations in this report that we believe will
help DOS to ensure consistency and uniformity nationwide.


EXAMINERS HAVE A BETTER UNDERSTANDING OF THE RISK-FOCUSED
EXAMINATION APPROACH

Our prior audit report noted that many examiners were unclear as to the goals and objectives of
the risk-focused approach. At the time, we recommended that DOS communicate to examiners
the program's goals and objectives including the amount of effort expected for the risk-scoping
(pre-planning) phase of examinations and the use of modules during the examination. In
response, DOS issued a Regional Director Memorandum entitled Risk-Focused Examination
Process - Program's Goals and Objectives on December 16, 1998, which conveyed to examiners
specific expectations for the risk-focused process, including guidance on the risk-scoping/
preplanning phase of the examinations and the use of modules and documentation requirements.

Both the Memphis and New York regions have established policies addressing the risk-scoping
phase of the examinations and guidelines for preparing the scope memorandum, which details
examination strategy. The policies outline the specific requirements for completing the risk-
scoping memorandum and establish review procedures and specific timeframes for completing
the scope memorandum. Almost all of the 28 examiners we talked to were clear on what was
expected of them in the risk-scoping phase of the examination and most felt they were allowed
adequate time to prepare the scope memorandum.

Our review of 49 scope memoranda indicated that the pre-planning phase of an examination has
improved since our last audit. We found that in every case the scope memoranda were reviewed
and approved by a Field Office Supervisor (FOS) or Supervisory Examiner and regional office
officials. Many of the examiners we interviewed stated that they thought the risk-scoping phase
was beneficial and because of it they are better prepared to conduct an examination upon
entering a bank. Examiners generally felt comfortable reducing the scope in those areas



                                               4
considered less risky, and they stated that as long as they provide supporting rationale, field
office supervisors are supportive of their risk-scoping decisions.

We did find a few instances where the scope memorandum did not detail why examiners were
performing or limiting certain areas of the examination or how they intended to limit their review
of selected areas. Also, in some cases, it appeared that the Examiner-In-Charge (EIC) did not
adequately address the supplemental modules when it seemed necessary. We conveyed these
observations to field office and regional office officials, where appropriate. Since these
discrepancies appeared to be isolated instances, we are not making any further recommendations
related to risk-scoping.

While reviewing the risk-scoping process, we noted that the New York regional office has
developed a pre-planning report format that provides comprehensive guidance to examiners that
should help to achieve consistency in preparing scope memoranda. DOS management may want
to consider using the pre-planning guidance issued by the New York region as a sort of "best
practices" example for other regions to follow.


INCONSISTENT USE AND DOCUMENTATION OF EXAMINATION MODULES

The DOS Manual of Examination Policies requires that examination procedures and conclusions
be sufficiently documented in the workpapers. The manual allows this requirement to be
satisfied through the use of the risk-focused examination modules. In response to our prior
review, DOS issued a Regional Director Memorandum entitled, Risk-Focused Examination
Program - Documentation Requirements, dated March 23, 1999, that stipulates and further
clarifies examination documentation requirements. The memorandum provides, in part, that the
use of the risk-focused examination modules is mandatory at every safety and soundness
examination. Examiners are also directed to complete the core analysis decision factors for each
module used with either a "yes" or "no" and to provide supporting documentation for each
answer. Examiners are not required to answer all core analysis decision factors for those
modules where the risk-scoping process indicates that the risk is small and well controlled or
where the examiner determines that the module is not applicable.

Although examiner use and documentation of the modules has improved since our last audit,
some examiners remain unclear as to what constitutes adequate documentation for completing
the core analysis decision factors. We reviewed over 400 examination modules from 49
examination workpaper files. Of these modules, approximately 50 percent did not appear to
adequately answer the core analysis decision factors, since the responses either contained only
"yes" or "no" answers without underlying support or were left blank. These responses did not
include any required supporting documentation about how and why examiners arrived at their
conclusions.

DOS program officials with whom we spoke concurred with our conclusions regarding
workpaper documentation. Based on interviews conducted, approximately 40 percent of the
examiners we interviewed stated that they are still completing the modules at the end of the
examination. Those who have implemented the documentation process in conjunction with the


                                                 5
examination indicated that they found the modules to be a good reference resource and that use
of the modules made it easier in the event personnel changes were required during an
examination. Assistant examiners stated that they found the modules to be a good training tool
and that they liked the modules' organization and structure. However, they noted that the
usefulness of the modules diminished somewhat after they became familiar with the process.
The following represents some of the areas requiring clarification:

Ø The level of response deemed necessary in addressing the core analysis decision factors.
  Some examiners were uncertain as to when only a "yes" or "no" response was sufficient, the
  degree of a response needed to support a conclusion, and when and how targeted expanded
  procedures should be implemented. However, in two of the five field offices we visited,
  examiners usually provided comprehensive responses and support for their conclusions.

Ø The utilization and completion of the supplemental modules and loan references. Some
  examiners were uncertain whether supplemental modules and loan references had to be
  completed or even addressed in the pre-examination memorandum when applicable activity
  was present.

Ø The effective use of the pre-examination and post-examination memoranda in establishing,
  limiting, and documenting the scope of reviews. Some examiners were uncertain as to how
  they should describe a limited or expanded scope and of the need to document scope changes
  in the post-examination memoranda.

Expanded Analysis

The DOS Memorandum entitled, Risk-Focused Examination Program - Documentation
Requirements dated March 23, 1999 stipulates, in part, that when significant deficiencies are
noted, examiners are required to complete the expanded analysis for the areas that present the
greatest degree of risk to the institution. If the risk is material or the activity is not adequately
managed, then examiners are also expected to perform an impact analysis.

Based on a review of institutions whose overall performance were CAMELS1 rated "3" or worse,
it appears examiners are not using the expanded analysis procedures as intended. To illustrate,
we reviewed seven examination files for banks rated "3" or worse. For these examinations,
examiners did not implement expanded review procedures for 18 of 23 components (78 percent)
that were deemed to be higher risk areas (rated "3", "4", or "5").

Based on discussions with examiners, there appears to be some confusion on when and how the
expanded analysis procedures should be performed. One examiner indicated that expanded
procedures were not implemented for a component rated "5" because there were no newly
1
 At the end of a safety and soundness examination, each financial institution is assigned a composite rating based
on an evaluation and rating of six essential components of an institution's financial condition and operations. These
component factors, known as "CAMELS," address capital adequacy, asset quality, management, earnings, liquidity,
and sensitivity to market risk. Composite and component ratings are assigned based on a 1 to 5 numerical scale. A
“1” indicates the highest rating, strongest performance and risk management practices, and least degree of
supervisory concern, while a “5” indicates the lowest rating, weakest performance, inadequate risk management
practices and, therefore, the highest degree of supervisory concern.

                                                          6
identified concerns noted from the prior examination. The examiner also stated that expanded
procedures were only necessary in situations where a component was being downgraded. In
general, the expanded procedures were seen as cumbersome and unnecessary. A few examiners
indicated that they did not want to use them, and that they felt addressing any examination
concerns or issues directly was more effective and time efficient. Additionally, examiners
seemed unaware that a targeted review of expanded procedures could be implemented without
performing a complete review of the expanded analysis section.

Recommendations

We recommend that the Director, DOS:

(1)    Reinforce existing guidance to examiners as to what constitutes adequate use and
       documentation of the modules and their related sections.

(2)    Provide clarification to examiners regarding when and how the expanded analysis
       procedures should be used.


SUPERVISORY OVERSIGHT SHOULD BE IMPROVED

At the conclusion of our original audit of the risk-focused approach, we recommended that DOS
develop a supervisory review process to ensure that examination modules are used consistently
and contain adequate supporting documentation. DOS management agreed with our
recommendation and stated in its response: "A supervisory review process by team leaders and
field office supervisors will be established to ensure that all examiners are using the modules as
directed and that adequate documentation is being provided. The need to provide constructive
feedback to examiners will be stressed."

As mentioned earlier, on December 16, 1998, DOS issued its Regional Director Memorandum
entitled Risk-Focused Examination Process - Program's Goals and Objectives. The
memorandum provides that "A review by supervisors, including team leaders and field office
supervisors is necessary to ensure the accurate and consistent implementation of the risk-focused
approach. Supervisor review and oversight, with feedback to the examination team, should
occur often enough to assess each examiner's knowledge and use of the modules and adherence
to the risk-focused examination process."

Our follow-up audit found that despite the intent of the DOS memorandum to ensure more
consistency, supervisory review and oversight varied between field offices. Of the five field
offices we visited, three had little or no supervisory review of examination workpapers above the
EIC level. The field office supervisors and team leaders of these three offices confirmed that
they did not typically review examination workpapers. In the two field offices where a formal
workpaper review process was in place, the ED modules and supporting workpapers were more
consistently prepared and adequately documented than in those offices without the review. One
office that implemented the supervisory review process most effectively formally documented
the team leader/FOS reviews and the corresponding feedback provided to the examiners.


                                                7
DOS cannot ensure the accurate and consistent implementation of the risk-focused examination
program without reviewing examination files and providing timely, constructive feedback to the
field office personnel. Supervisory oversight with feedback to the examination team would
reinforce implementation of the procedures and foster a more consistent application of the
program. This could be accomplished by requiring formal documentation of supervisory reviews
and corresponding feedback.

Recommendation

We recommend that the Director, DOS:

(3)    Direct all field offices to perform the necessary supervisory reviews to ensure that
       adequate supporting documentation is provided and that appropriate feedback is given to
       examiners.


RISK-FOCUSED EXAMINATION SOFTWARE PROGRAM NOT BEING USED AS
INTENDED

The ED software program automates the procedures that examiners should follow when
performing an examination. The system is designed so that examiners may enter information in
response to the core analysis procedures that can then be compiled and used as supporting
documentation to answer the core analysis decision factors. The program was designed to allow
examiners to interface with the General Examination System (GENESYS) and to process
comments into the Report of Examination. Currently a direct interface does not exist between
the GENESYS and ED software program.

The ED software program is still not being utilized as intended. While improvement has been
noted in the use of the modules as a part of the risk-focused examination process, areas of
weakness still exist. In particular, a large percentage of the examiners are using the detailed
procedural guidelines as a post-review checklist. Of these examiners, some continue to print out
the core analysis decision factors and to respond to the questions by hand, while others draft
report comments into Microsoft Word and then cut and paste the appropriate responses into the
modules. Examiners indicated to us some of the following concerns:

Ø The detail procedures/questions were repetitive.

Ø The effort required to reformat and reprocess compiled comments into the Core Analysis
  Decision Factors was time consuming and unproductive.

Ø The responses formulated to address the Core Analysis Decision Factors do not lend
  themselves to report comments.

Ø The system is not user-friendly in formulating report comments and in processing comments
  on an on-going basis.


                                               8
Ø Modules from the prior examination are not being referenced or utilized due to the lack of
  conciseness and readability of workpapers.

Despite these concerns, most examiners have stated that they found the ED modules to be a good
reference resource and a good training tool for assistant examiners. In addition, most examiners
stated, in part, that they do not need additional training on the use and function of the modules
and/or the software program. As a result, the current use of and concerns over the ED software
program appear to be largely a result of the modules' format and not necessarily a result of a lack
of examiner understanding or training.

Examiners also expressed concerns of suffering from "software overload." For example,
examiners feel a significant amount of their time and energy has been spent on trying to
understand and implement numerous new software programs. As a result, due to the volume of
changes made within the FDIC's various software systems and examination programs, examiners
appear hesitant to embrace a new program that does not provide a direct and tangible impact to
the examination process. Examiners have also expressed concerns over the implementation of
GENESYS and its future integration with the ED software program. In particular, examiners
noted that the conceptual basis of GENESYS as a shared system file is not being implemented
and comments are still being formulated in Microsoft Word. Also, examiners reported that they
have spent a significant amount of time trying to work around various program functions and
glitches. The merging of the two programs may further complicate the examination process and
could result in a disjointed and convoluted system.

Recommendation

We recommend that the Director, DOS:

(4)    Reevaluate the ED program. Any reevaluation should: (1) determine how the process
       could be streamlined to improve the acceptance and use of the program while facilitating
       the examination process, (2) determine software enhancements needed to improve the ED
       program and its interface with GENESYS, and (3) determine the training needed to fully
       implement the program.


MONITORING OF THE RISK-FOCUSED EXAMINATION PROCESS

Our last audit noted that DOS Washington management had not developed a systematic
approach to obtaining nationwide feedback on DOS's progress in implementing the risk-focused
examination process. We recommended that DOS establish an evaluation system that (1) clearly
specifies program goals and objectives and advises regional and field office personnel of
precisely what is expected of them, (2) employs clearly stated criteria by which to measure
program accomplishments, and (3) assists management in controlling the risks that accompany
such a major change in the examination process. These risks include the potential for
inconsistent implementation among DOS's regional and field offices.



                                                 9
DOS has reemphasized the risk-focused examination process through a series of divisional
memoranda and discussions at DOS meetings and training conferences. During 1999, DOS
management provided examiners in the New York, Atlanta, San Francisco, and Kansas City
regions with several hours of additional training during breakout sessions at regional
conferences. Other regions are scheduled to receive this additional training during their up-
coming regional conferences this year.

In addition, DOS created a steering committee for risk-focused examinations which has met
several times during 1999 in an effort to update and revise modules and to discuss feedback
received from examiners. Steering committee representatives from the FDIC, the Federal
Reserve Board, and the CSBS have met to discuss the overall program and objectives. Through
the steering committee, DOS has made progress in developing an evaluation system that
monitors and assesses progress made in implementing the desired risk-focused goals and
objectives.

In addition, we noted that regional office and field office reviews generally did not address
implementation of the risk-focused process in a detailed manner. As an exception to this, field
office reviews performed by the New York Regional Office made specific recommendations
concerning implementation of the risk-focused examination process. Although we are not
making any further recommendations in this area, we believe that DOS could strengthen its
oversight of the risk-focused process by assessing its use during regional and field office
reviews.


CLARIFICATION NEEDED FOR RISK-FOCUSED PROCESS DURING JOINT
EXAMINATIONS

Pursuant to a request from DOS management, we also reviewed how the risk-focused process
was being implemented during joint examinations.2 Examiners we interviewed in the New York
and Memphis regions indicated to us that, during a joint examination, they are not sure what to
do if state examiners do not use the ED modules/risk-focused process. We were told that some
examiners go ahead and complete the modules as best they can while others just omit the ED
modules. According to the FDIC examiners, some states have not adopted the risk-focused
approach and many state examiners are not experienced in using the risk-focused approach and
applicable software.

A survey conducted by the CSBS in May 1999 showed that 32 state banking departments are
using the risk-focused process while 18 are not using the process. However, a CSBS official
informed us that the numbers documented in their survey may be misleading as the survey did
not seek to determine the extent to which the states were using the risk-focused process,
including the ED software. One CSBS official stated that even though 32 states were reported as
using the risk-focused process and ED software, some states were not using it to any great extent.



2
 In a joint examination, one Report of Examination is produced and signed by both the FDIC and state banking
authority.

                                                       10
Our review of examination workpapers and interviews with field office personnel located in the
New York and Memphis regions confirmed that state banking departments do not always use the
risk-focused process and document examination results using the ED software. We reviewed the
workpaper files for 10 joint examinations. In these 10 examinations there were 90 core modules
that should have been completed during the course of the examinations. Our review of the files
found that approximately 17 percent of the modules were missing from the joint examination
workpaper files. According to FDIC field office personnel, the modules were missing because
state examiners had not completed the modules.

According to DOS examiners, some states are operating under budget constraints and do not
have computer systems equivalent to those of the FDIC. Also, some state examiners are not
experienced in using the ED software because they examine other types of institutions (credit
unions and check cashing companies) that do not necessarily require the use of risk-focused
procedures. As a result, state examiners frequently do not fill out the ED documentation during a
joint examination. Some FDIC examiners told us they complete the ED documentation after the
examination is completed to satisfy DOS's workpaper requirements while others stated that if the
state is the lead, the modules may not be completed.

DOS's documentation requirements for the risk-focused examination program do not provide
specific guidance on how the results of the examination should be documented when the
examination is conducted in conjunction with the state banking departments. DOS should issue
guidance to examiners to help clarify their responsibilities during a joint examination.

Recommendation

We recommend that the Director, DOS:

(5)    Develop specific guidance for FDIC examiners to follow when conducting risk-focused
       examinations jointly with state banking departments.

(6)    Instruct regional offices to work with state banking departments to help achieve uniform
       procedures and workpaper documentation for joint examinations.


CORPORATION COMMENTS AND OIG EVALUATION

On April 14, 2000, the Director, DOS provided a written response to the draft report. The
response is presented in its entirety in Appendix I to this report.

The Director, DOS, stated that he agrees with the report’s recommendations and proposed a
number of corrective actions. The Corporation’s response to the draft report provides the
elements necessary for management decisions on the report’s recommendations. Accordingly,
no further response to this report is necessary.




                                               11
                                                                            APPENDIX I
Federal Deposit Insurance Corporation
550 17th Street NW, Washington, DC 20429                                            Division of Supervision


                                                        April 14, 2000
TO:                 David H. Loewenstein
                    Assistant Inspector General




FROM:               James L. Sexton
                    Director

SUBJECT:            Draft Report Entitled – Follow-up Audit of the Implementation
                    of the DOS Risk-Focused Examination Process


Thank you for the opportunity to review and respond to the OIG’s draft report entitled Follow-up
Audit of the Implementation of the DOS Risk-Focused Examination Process, dated March 15,
2000. The draft report indicates that DOS has made progress in implementing the risk-focused
examination process, but additional improvements are necessary to ensure consistent and
uniform implementation. DOS agrees with the report’s contents and appreciates the sound
recommendations contained therein.

The OIG has made six recommendations to improve the risk-focused examination process. Our
responses to the OIG’s recommendations follow.

Response to Audit Findings

Use and Documentation of Examination Modules

1.        Reinforce existing guidance to examiners as to what constitutes adequate use and
          documentation of the modules and their related sections.

          DOS Response: This recommendation relates to the finding that some examiners remain
          unclear as to what constitutes adequate documentation for completing the core analysis
          decision factors and limiting the scope of reviews. DOS is aware of the need to reinforce
          existing guidance, and we remain committed to improving the use and documentation of
          the examination modules.

          As noted in the OIG’s draft report, DOS issued a regional director memorandum on
          March 23, 1999, entitled Risk Focused Examination Program – Documentation
          Requirements. The purpose of the memorandum was to provide examiners with
          additional guidance for using the examination modules, documenting the attendant
          decision factors, and limiting the scope of reviews where appropriate. The OIG’s draft
          report also notes that DOS has reinforced existing guidance by conducting break-out
          sessions during various regional training conferences. Since the OIG’s audit, DOS has

                                                   12
       conducted Risk-Focused Supervision training at the San Francisco Regional Training
       Conference on October 7, 1999.

       To further reinforce existing guidance on Risk-Focused Supervision, DOS plans to provide
       all examiners with a one-day Risk-Focused Supervision refresher-training course. The
       refresher-training will, in part, address adequate use and documentation of the modules.
       Currently, it is anticipated that the refresher-training will be initiated in late second quarter
       or early third quarter of 2000.

       DOS also continues to work with DOA’s Training and Consulting Services Branch (TCSB)
       to revise core examiner school curriculum to include guidance on Risk-Focused Supervision
       and the Examination Documentation software program. DOS personnel recently met with
       TCSB staff in March 2000 to discuss this objective and review progress. It is currently
       anticipated that the revised core school curricula will be implemented by year-end 2000.

2.     Provide clarification to examiners regarding when and how the expanded analysis
       procedures should be used.

       DOS Response: This recommendation primarily relates to the finding that examiners did
       not implement expanded review procedures for 78 percent of sampled CAMELS
       components rated “3”, “4”, or “5.” Additionally, discussions with examiners also
       indicated that some confusion exists as to when and how the expanded analysis
       procedures should be used. DOS agrees that clarification or additional guidance is
       necessary, and we continue to emphasize the importance of implementing expanded
       analysis procedures where appropriate.

       As previously noted, DOS issued written guidance to examiners on implementing risk-
       focused procedures in the March 23, 1999, regional director memorandum entitled Risk
       Focused Examination Program – Documentation Requirements. The regional director
       memorandum reiterates that examiners are expected to perform additional testing
       procedures when the review of internal control systems raises doubts about their
       effectiveness. The memorandum also states that examiners are required to complete the
       expanded analysis when significant deficiencies or weaknesses are noted in the core
       analysis review.

       DOS will reinforce the existing guidance on implementing expanded analyses during the
       Risk-Focused Supervision refresher-training course that will be initiated in late second
       quarter or early third quarter of 2000. The refresher-training course will include case studies
       that exemplify when and how expanded analyses should be used.

Supervisory Oversight

3.     Direct all field offices to perform the necessary supervisory reviews to ensure that
       adequate supporting documentation is provided and that appropriate feedback is given to
       examiners.



                                                  13
      DOS Response: This recommendation relates to the finding that the supervisory review
      and oversight of the Risk Focused Supervision examination process varies between field
      offices, and feedback to the examination team is not provided often enough to ensure
      adherence to the program. DOS agrees with this finding and commits to improving
      supervisory oversight.

      As the OIG noted in their draft report, DOS previously issued a regional director’s
      memorandum on December 16, 1998, entitled Risk-Focused Examination Process –
      Program’s Goals and Objectives. The memorandum specified that regional supervisors
      would oversee a process wherein field office supervisors and team leaders would review
      this area and provide periodic feedback to examiners.

      During March 2000, DOS Planning and Program Development staff completed a quality
      review of reports of examination to assess each region’s implementation of the Risk-
      Focused Supervision examination process. DOS will provide the regions with feedback
      on the results of the review in the near future. As part of the feedback, DOS will remind
      regional directors and field office supervisors of the review requirements detailed in the
      December 16, 1998, regional directors memorandum entitled Risk-Focused Examination
      Process – Programs Goals and Objectives. The topic of supervisory reviews will also be
      included on agendas for upcoming regional director and field office supervisors meetings.

Use of the Risk-Focused Examination Software Program

4.    Reevaluate the ED program. Any reevaluation should (1) determine how the process
      could be streamlined to improve the acceptance and use of the program while facilitating
      the examination process, (2) determine software enhancements needed to improve the ED
      program and its interface with GENESYS, and (3) determine the training needed to fully
      implement the program.

      DOS Response: This recommendation primarily results from the OIG’s finding that the
      ED software program is not being used as intended. Specifically, the OIG’s audit
      indicated that examiners continue to use the procedures as a post-review checklist or to
      respond in handwriting as opposed to using the automated function. DOS agrees with the
      OIG’s finding and continues to evaluate the program’s effectiveness.

      During the first quarter of 2000, the Interagency Steering Committee for Risk-Focused
      Examinations and Related Software Products completed a study of the examination
      workflow. The purpose of the study was (1) to describe when and how the automated tools
      ED, ALERT, and GENESYS are used in the examination process, and (2) to provide
      detailed recommendations for integrating and streamlining the various examination software
      products. The study paper, which is currently in draft format, includes several
      recommendations for improving the process. We are currently reviewing the
      recommendations and will determine an appropriate course of action in the near future.

      DOS has also assessed training needs for software products. The refresher-training course
      planned for late second or early third quarter 2000 will include a segment on the ED


                                              14
      software program. In addition, it is currently anticipated that the core examiner training
      schools will be revised to include a segment on ED use and application. As previously
      noted, the current plans are to implement the revised core school curricula by year-end 2000.


Implementation of Risk-Focused Process During Joint Examinations

5.    Develop specific guidance for FDIC examiners to follow when conducting risk-focused
      examinations jointly with State banking departments.

6.    Instruct regional offices to work with State banking departments to help achieve uniform
      procedures and workpaper documentation for joint examinations.

      DOS Response: Both of these recommendations result from OIG’s finding that FDIC
      examiners are uncertain of workpaper requirements during joint examinations. DOS
      agrees with the OIG’s recommendation and commits to take corrective action.

      DOS plans to issue written guidance to the field that addresses the issue of workpaper
      requirements when the State banking departments are the lead of either the examination or a
      specific functional activity. Our current plans are to issue this guidance in the second or
      third quarter of 2000. Regional offices will continue to work with the State banking
      departments to help achieve uniform procedures and workpaper documentation for joint
      examinations.




                                               15
                                                                                                                                APPENDIX II

                                       MANAGEMENT RESPONSES TO RECOMMENDATIONS

The Inspector General Act of 1978, as amended, requires the OIG to report the status of management decisions on its recommendations in its
semiannual reports to the Congress. To consider FDIC’s responses as management decisions in accordance with the act and related guidance,
several conditions are necessary. First, the response must describe for each recommendation

   § the specific corrective actions already taken, if applicable;
   § corrective actions to be taken together with the expected completion dates for their implementation; and
   § documentation that will confirm completion of corrective actions.
If any recommendation identifies specific monetary benefits, FDIC management must state the amount agreed or disagreed with and the reasons
for any disagreement. In the case of questioned costs, the amount FDIC plans to disallow must be included in management’s response.

If management does not agree that a recommendation should be implemented, it must describe why the recommendation is not considered valid.
Second, the OIG must determine that management’s descriptions of (1) the course of action already taken or proposed and (2) the documentation
confirming completion of corrective actions are responsive to its recommendations.

The table on the next page presents the management responses that have been made on recommendations in our report and the status of
management decisions. The information for management decisions is based on management’s written response to our report.




                                                                      16
                                                                                                           APPENDIX II

                                                                                  Documentation                        Management
                                                               Expected          That Will Confirm      Monetary       Decision: Yes
       Corrective Action: Taken or Planned/Status           Completion Date        Final Action         Benefits          or No
    The Corporation agreed with the recommendation.
                                                                                                           Not
1   DOS will provide a one-day refresher course to all      December 31, 2000      Training memo                           Yes
                                                                                                        Quantifiable
    examiners.
    The Corporation agreed with the recommendation.
                                                                                                           Not             Yes
2   DOS will provide a one-day refresher course to all      December 31, 2000      Training memo
                                                                                                        Quantifiable
    examiners.
    The Corporation agreed with the recommendation.
                                                                                  Feedback report to
    DOS will perform quality reviews of reports and
                                                                                 regional offices and      Not
3   provide feedback to regions. Supervisory review         December 31, 2000                                              Yes
                                                                                 Ro and FO meeting      Quantifiable
    will be discussed at upcoming regional director and
                                                                                       agendas
    field office supervisors meetings.
    The Corporation agreed with the recommendation.
    DOS is in the process of performing a study of
                                                                                 Report from study
    examination software and will provide                                                                  Not
4                                                           December 31, 2000       and course                             Yes
    recommendations for improvement. Also,                                                              Quantifiable
                                                                                   curriculums
    additional training will be provided through the core
    examiner schools.
    The Corporation agreed with the recommendation.
                                                                                  Written guidance         Not
5   DOS will issue written guidance to examiners that       September 30, 2000                                             Yes
                                                                                       issued           Quantifiable
    will address issues on joint exams.
    The Corporation agreed with the recommendation.
                                                                                  Written guidance         Not
6   DOS will issue written guidance to examiners that       September 30, 2000                                             Yes
                                                                                       issued           Quantifiable
    will address issues on joint exams.




                                                                    17
